          Office of Inspector General




                                  February 6, 2004

                                  PAUL E. VOGEL
                                  VICE PRESIDENT, NETWORK OPERATIONS
                                   MANAGEMENT

                                  ROBERT L. OTTO
                                  VICE PRESIDENT, CHIEF TECHNOLOGY OFFICER

                                  SUBJECT: Management Advisory – Labor Scheduler
                                           Program Phase 1
                                           (Report Number DA-MA-04-002)

                                  This management advisory presents the results of our
                                  review of the Postal Service Labor Scheduler Program
                                  Phase 1 (Project Number 03BG063DA000). This project
                                  was self-initiated to determine whether the Labor Scheduler
                                  program was effectively developed and deployed to achieve
                                  its intended benefits, outcomes, and return on investment.

Results in Brief                  During our review of the feasibility and pilot sites, we
                                  determined the Labor Scheduler may not achieve its
                                  intended benefits because of incomplete source data and
                                  ineffective model results. When we reviewed the model
                                  implementation results and return on investment for national
                                  deployment, we found weaknesses in capturing potential
                                  savings. However, the Labor Scheduler was effectively
                                  developed and deployed to the pilot sites, although we
                                  identified opportunities for Postal Service to improve
                                  communication.

                                  We made five recommendations to improve the Labor
                                  Scheduler program. We recommended developing and
                                  implementing a formal communication plan, and written
                                  policies and procedures for the administration of the Labor
                                  Scheduler program. We also recommended the
                                  development and enforcement of formal written policies on

  1735 N Lynn St
  Arlington, VA 22209-2020
  (703) 248-2100
  Fax: (703) 248-2256
Labor Scheduler Program Phase 1                                                  DA-MA-04-002



                            data requirements and the incorporation of lessons learned
                            from model results of feasibility and pilot sites. Finally, we
                            recommended a review of the Phase 1 model results to
                            capture realistic savings before the execution of the
                            Decision Analysis Report (DAR) for Phase 2 national
                            deployment.

                            Management agreed with four of the five recommendations.
                            However, they did not agree in part with the
                            recommendation addressing the Phase 1 model results.
                            Specifically, management stated the methodology used in
                            the Phase 1 DAR is valid but agreed the Phase 2 DAR
                            should be based on an accurate analysis of the Phase 1
                            model results. This meets the intent of this
                            recommendation.

                            Management’s comments and actions taken or planned are
                            responsive to our findings and recommendations and
                            should correct the issues identified in the report.
                            Management’s comments, in their entirety, are included in
                            the appendix of this report.

Background                  The Labor Scheduler is a planning tool for optimizing the
                            workforce complement in mail processing facilities. It
                            enables plant management to avoid conditions of
                            overstaffing or understaffing that lead to higher mail
                            processing costs or failures in meeting service
                            commitments. The Labor Scheduler provides a
                            standardized process for developing, implementing, and
                            reviewing core job assignments at a facility. It also
                            generates verifiable data output to support proposed
                            changes in bid assignments presented to local craft
                            workforces and labor union officials.

                            In February 2003, the Board of Governors approved
                            $17.7 million for Phase 1 deployment of Labor Scheduler to
                            40 mail processing facilities. Postal Service Network
                            Operations Management estimates the Phase 2 deployment
                            will cost $1.2 million and will begin in fiscal year 2005.

Objectives, Scope,          Our objective was to determine whether the Labor
and Methodology             Scheduler was effectively developed and deployed to
                            achieve its intended benefits, outcomes, and return on
                            investment.


                                              2
Labor Scheduler Program Phase 1                                                    DA-MA-04-002



                            To accomplish our objectives, we interviewed Postal
                            Service officials at Postal Service Headquarters, a feasibility
                            site (in Atlanta, Georgia), and pilot sites (in Chicago, Illinois;
                            Westchester, New York; San Francisco, California; and
                            Denver, Colorado). We also reviewed applicable policies
                            and any other materials necessary to understand the
                            subject and potential audit issues. We reviewed the Labor
                            Scheduler program, Processing and Distribution Centers’
                            operations, decisions regarding the costs and benefits, and
                            contract administration. In addition, we reviewed
                            compliance with the Postal Service’s current strategic plans.
                            We also consulted with the Office of Inspector General
                            expert staff and legal counsel.

                            This review was conducted from March 2003 through
                            February 2004 in accordance with the President’s Council
                            on Integrity and Efficiency, Quality Standards for
                            Inspections. We discussed our conclusions and
                            observations with appropriate management officials and
                            included their comments, where appropriate. We evaluated
                            the reliability of computer-generated data and determined
                            the source data were either incomplete or not available.

Prior Audit Coverage        We did not identify any prior audits or reviews related to the
                            objective of this review.

Ineffective                 At the pilot sites visited, the Labor Scheduler program office
Communication               did not always communicate effectively how to administer
                            the program. This condition occurred because the program
                            office did not give sufficient formal guidance to plant
                            management. Therefore, plant management was
                            unclear on:

                                  •   Enforcing the implementation of the Labor
                                      Scheduler.

                                  •   Accepting the reasonableness of the Labor
                                      Scheduler model results.

                                  •   Establishing effective communication among all
                                      functional groups in a plant.

                                  •   Adjusting multiple reporting times, which affected
                                      managing mail processing operations.


                                                3
Labor Scheduler Program Phase 1                                                                    DA-MA-04-002



                                       •    Addressing surplus workers identified by the Labor
                                            Scheduler, after contractual provisions were
                                            followed.

                                  The General Accounting Office (GAO) guide1 for internal
                                  control states that information should be recorded and
                                  communicated to management and others within the entity
                                  who need it and in a form and within a time frame that
                                  enables them to carry out their internal control and other
                                  responsibilities.

                                  Effective communications should occur in a broad sense
                                  with information flowing down, across, and up the
                                  organization. In addition to internal communications,
                                  management should ensure there are adequate means of
                                  communicating with, and obtaining information from,
                                  external stakeholders that may have a significant impact on
                                  the agency achieving its goals. Moreover, effective
                                  information technology management is critical to achieving
                                  useful, reliable, and continuous recording and
                                  communication of information.

                                  Without sufficient communication and developed policies
                                  and procedures on program management, the Labor
                                  Scheduler program will not effectively achieve its goals.

Incomplete Source                 At the feasibility and pilot sites visited, we found the source
Documents May                     data used to optimize the workforce and schedules for
Affect Data Quality               Labor Scheduler were either incomplete or not available,
                                  thereby, affecting data quality. For example, based on our
                                  interviews and reviews of plants’ mail processing tours,
                                  Postal Service Form 2345, Personnel Workhours
                                  (timesheets submitted by supervisors), used to collect
                                  source data were inaccurate, incomplete, or missing. In
                                  addition, plant personnel did not document employee
                                  surveys used to collect source data; therefore, we were
                                  unable to validate the data input into the Labor Scheduler.

                                  These conditions occurred because plant personnel at the
                                  sites did not understand the completion requirements for the
                                  timesheets nor were there clear policies on standard data
                                  collection methods for data input.


1
    GAO/AIMD-00-21.3.1, November 1999, Standards for Internal Control in the Federal Government.

                                                         4
Labor Scheduler Program Phase 1                                                  DA-MA-04-002



                           The GAO guide for internal control states that information
                           should be recorded and communicated to management and
                           others within the entity who need it and in a form and within a
                           time frame that enables them to carry out their internal control
                           and other responsibilities.

                           Effective communications should occur in a broad sense with
                           information flowing down, across, and up the organization. In
                           addition to internal communications, management should
                           ensure there are adequate means of communicating with,
                           and obtaining information from, external stakeholders that
                           may have a significant impact on the agency achieving its
                           goals. Moreover, effective information technology
                           management is critical to achieving useful, reliable, and
                           continuous recording and communication of information.

                           Without sufficient communication and developed policies and
                           procedures on data requirements, the quality of the Labor
                           Scheduler model results and the optimization of the
                           workforce may be compromised.

Program Benefits           At the feasibility site visited, the Labor Scheduler model
May Not Be                 results may not have optimized the workforce; therefore,
Achieved                   the program may not achieve projected benefits. Plant
                           management implemented the model results, which identified
                           112 changed or reduced positions. After plant management
                           reduced a significant number of positions, workhours, and
                           overtime increased so existing staff could effectively process
                           mail volume.

                           Postal Service plant management and union officials stated
                           that after the completion of the model results, regular
                           employees were working 12 hours a day and part-time
                           flexible employees were exceeding their 32-hour weekly limit.
                           As a result, the union filed a class action grievance.

                           The source data used for the Labor Scheduler were
                           incomplete, in turn, not reflecting a true picture of the
                           workforce. Therefore, the staffing requirements needed to
                           process mail volume at the feasibility site were not met
                           because the model results were overstated.

                           The DAR states the Labor Scheduler system will produce
                           optimized work schedules to ensure that staffing


                                              5
Labor Scheduler Program Phase 1                                                  DA-MA-04-002




                           requirements for the mail processing operations are met to
                           reduce operating costs.

                           At the pilot sites visited, plant management did not fully
                           implement or use the Labor Scheduler model results to
                           capitalize on workforce optimization; therefore, the program
                           may not achieve projected benefits. These sites either
                           disregarded or partially implemented the model results
                           causing no employee reduction. Based on our interviews
                           with plant management, they indicated they would implement
                           the results in phases within the different plant operations or in
                           some cases, not at all.

                           These conditions occurred because the model results
                           identified staff changes and reductions as high as
                           583 positions. Plant management stated that implementing
                           full model results might be disruptive to mail processing
                           operations. As a result, no employee reduction occurred
                           from implementation of the model results.

                           However, in order to capitalize on workforce optimization, the
                           DAR requires a reduction of 7.5 full-time equivalent positions
                           per plant. This is based on a projected savings of
                           approximately $101 million over a seven-year period for the
                           Labor Scheduler program.

                           Therefore, without meeting staffing requirements to optimize
                           the workforce and reduce staff complement by 7.5 full-time
                           equivalent positions, program benefits and projected savings
                           that are described in the DAR may not be achieved.

Pilot Results Not          Plant management did not use the results from the pilot sites
Used for                   to determine savings and return on investment for national
Determining Return         deployment of the Labor Scheduler. Postal Service
on Investment              management used a conservative estimate of 7.5 full-time
                           equivalent employees to project potential savings for national
                           deployment. The Capital and Program Evaluation office
                           validated the DAR. However, the validation letter stated the
                           report has been validated with the exception of anticipated
                           workhour savings of 7.5 full-time equivalent positions per
                           plant. This condition occurred because the Postal Service
                           executed the DAR prior to completing and reviewing all
                           results from the pilot sites.


                                              6
Labor Scheduler Program Phase 1                                                                   DA-MA-04-002



                                 The GAO guide2 for capital decision-making states that
                                 one way to evaluate a project‘s performance is to measure
                                 its outcomes against the approved goals and objectives.
                                 This process aids in determining whether the capital
                                 investment achieved the intended benefits. An organization
                                 can incorporate this type of evaluation into the capital
                                 decision-making process through a performance
                                 measurement system or through post-completion
                                 evaluations.

                                 Unless the Postal Service reviews pilot results to ensure that
                                 programs will meet business requirements, it is uncertain
                                 whether the Labor Scheduler program will achieve the
                                 intended objectives or mission performance.

Recommendation                   We recommend before national deployment of the Labor
                                 Scheduler Phase 2 program, the vice president, Network
                                 Operations Management, in coordination with the vice
                                 president, chief technology officer:

                                     1. Develop and implement a formal communication plan
                                        for all stakeholders in the Labor Scheduler program.

Management’s                     Management agreed with the recommendation and stated
Comments                         they have worked with Postal Service Headquarters Human
                                 Resources and Workplace Environment Improvement to
                                 create a standardized communications package. Action was
                                 completed May 15, 2003.

Recommendation                       2. Develop formal written policies and procedures to
                                        administer the Labor Scheduler program, manage
                                        multiple reporting times, and address the issue of
                                        surplus workers.

Management’s                     Management agreed with the recommendation. The program
Comments                         office developed many tools for deployment. These include:
                                 Communications plan, Application Manual, Cookbook, Labor
                                 Scheduler 1, and Labor Scheduler 2 training classes.

                                 The Labor Scheduler Cookbook outlines a step-by-step
                                 process for Labor Scheduler deployment from site
                                 preparation through data collection, running models,
                                 adjusting model constraints, results justification,

2
    GAO/AIMD-99-32, December 1998, Executive Guide for Leading Practices in Capital Decision-Making.

                                                        7
Labor Scheduler Program Phase 1                                                   DA-MA-04-002



                           implementation, and assignment of action items to
                           responsible parties. Action was completed May 15, 2003.

Recommendation             We recommend before national deployment of the Labor
                           Scheduler Phase 2 Program, the vice president, Network
                           Operations Management, in coordination with the vice
                           president, chief technology officer:

                                  3. Develop and enforce formal written policies and
                                     procedures on data requirements for Labor
                                     Scheduler.

Management’s               Management agreed with the recommendation and stated
Comments                   they have established a process for the completion of the
                           required Demand Profiles throughout a facility. This process
                           is designed to be flexible enough to incorporate unique
                           factors in different processing and distribution centers.
                           Action was completed May 15, 2003.

Recommendation                    4. Evaluate and incorporate any lessons learned in
                                     implementing model results from the feasibility and
                                     pilot sites.

Management’s               Management agreed with the recommendation and have
Comments                   incorporated lessons learned from the feasibility and pilot
                           deployments. They indicated that these experiences have
                           been incorporated in a standardized deployment process.
                           Action was completed May 15, 2003.

Evaluation of              Management’s actions are responsive to recommendations 1
Management’s               through 4 and actions taken should correct the issues
Comments                   identified in the report.

Recommendation                    5. Review Phase 1 model results to capture realistic
                                     savings before executing the Decision Analysis
                                     Report for Phase 2 national deployment.

Management’s               Management disagreed in part with this recommendation.
Comments                   They stated that they believe the methodology used in the
                           Phase 1 DAR is still valid. This methodology is being utilized
                           in the modification of the Phase 1 DAR, expanding the
                           number of Labor Scheduler sites from 40 to 90.




                                                 8
Labor Scheduler Program Phase 1                                                 DA-MA-04-002




                           However, management agreed the decision to pursue a
                           Phase 2 DAR should be based on an analysis of the results
                           of the Phase 1 sites and the ability to capture the appropriate
                           Full Time Equivalent savings as described in the modified
                           Phase 1 DAR.

Evaluation of              While management disagreed in part with the
Management’s               recommendation, their comments meet the intent of the
Comments                   recommendation. Management agreed the decision to
                           pursue a Phase 2 DAR should be based on an analysis of
                           the results of the Phase 1 sites.

                           In addition, they stated that since an accurate savings
                           potential is only possible following the completion of model
                           results at each processing facility, each site has been
                           allowed to be entrepreneurs and achieve additional savings
                           where available. The actions planned meet the intent of the
                           recommendation and should correct the issues identified in
                           the report.

                           We appreciate the cooperation and courtesies provided by
                           your staff during the review. If you have any questions or
                           need additional information, please contact Tracy A. LaPoint,
                           director, at (703) 248-2100 or me at (703) 248-2300.


                           /s/ Ronald D. Merryman

                           Ronald D. Merryman
                           Deputy Assistant Inspector General
                            for Technology, Marketing, and Oversight

                           Attachment

                           cc: John A. Rapp
                               Richard J. Strasser, Jr.
                               Philip A. Pensabene
                               Steven N. Benson
                               William Batterton
                               Susan M. Duchek




                                              9
Labor Scheduler Program Phase 1                      DA-MA-04-002



                   APPENDIX. MANAGEMENT’S COMMENTS




                                  10
Labor Scheduler Program Phase 1        DA-MA-04-002




                                  11
Labor Scheduler Program Phase 1        DA-MA-04-002




                                  12
Labor Scheduler Program Phase 1        DA-MA-04-002




                                  13
Labor Scheduler Program Phase 1        DA-MA-04-002




                                  14
Labor Scheduler Program Phase 1        DA-MA-04-002




                                  15
Labor Scheduler Program Phase 1        DA-MA-04-002




                                  16
